CERTIFICATE OF COMPLIANCE
No. 20-435
WALTON B. CAMPBELL,

Petitioner,
v.

RYAN D. MCCARTHY, U.S. DEPARTMENT OF THE ARMY,
Respondent
I hereby certify that the Motion for Leave to File Amici Curiae Brief and
Brief of Amici Curiae National Security Legal Academics in Support of Petitioner
contain 312 words and 3456 words, respectively.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.
Date: November 3, 2020
Respectfully submitted,
/s/ Kelly McClanahan
Kelly McClanahan

Counsel of Record

National Security Counselors
4702 Levada Terrace
Rockville, MD 20853
301-728-5908
Kel@NationalSecurityLaw.org

Counsel for Amici Curiae

